L -

CERTIFICATE OF SERVICE
I, Elizabeth Mata, hereby certify that I am over the age of
18 years old and that I am not party to this action. I am
employed in the County of Los Angeles, State of
California.
My business address is 23293 Ventura
Boulevard, Woodland Hills, California 91364.
On July 16, 2020, I sent only 1 unbound copy of the
Petition for Writ of Certiorari with the payment fee via
USPS Express mail TRACKING NUMBER <fT
U3 iW OS
pursuant to the Clerk’s special instructions by phone
whom instructed me to do so and also instructed me that
no booklets were to be sent due to the Supreme Court’s
safety precautions for the Covid-19 Pandemic.
I also sent a copy of the Petition for Writ of Certiorari to
the Counsel of record listed below by USPS Express Mail:
Paul S. Reichler
Andrew Z. Schwartz
FOLLEY HOAG, LLP
Seaport World Trade Center West
155 Seaport Boulevard
Boston, MA 02210-2600
^FEDERAL I declare under penalty of perjury, under
the laws of the United States of America, that the
foregoing is true and correct.
Executed on July 16, 2020, in Woodland Hills, California.

CERTIFICATE OF SERVICE
I, Elizabeth Mata, hereby certify that I am over the age of
18 years old and that I am not party to this action. I am
employed in the County of Los Angeles, State of
California.
My business address is 23293 Ventura
Boulevard, Woodland Hills, California 91364.
On July 16, 2020, I sent only 1 unbound copy of the
Petition for Writ of Certiorari with the pa“m'‘*Q±
via
USPS Express mail TRACKING NUMBER j
EJ 25b tl3
pursuant to the Clerk’s special instructions by-p iioiit?*—
whom instructed me to do so and also instructed me that
no booklets were to be sent due to the Supreme Court’s
safety precautions for the Covid-19 Pandemic.
I also sent a copy of the Petition for Writ of Certiorari to
the Counsel of record listed below by USPS Express Mail:
Paul S. Reichler
Andrew Z. Schwartz
FOLLEY HOAG, LLP
Seaport World Trade Center West
155 Seaport Boulevard
Boston, MA 02210-2600
^FEDERAL I declare under penalty of perjury, under
the laws of the United States of America, that the
foregoing is true and correct.
Executed on July 16, 2020, in Woodland Hills, California.

ibeth Mata

77A US

